                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

1
                                                                                                             -




    Case Number: 107050012
                                                                                        11        Page 1 of 1



               As a result of a proactive review, we learned that a g,ranteel expended NSF conference award funds
               in violation of NSF award conditions and applicable regulations. We opened this I-case to conduct a
               review of all award expenditures and determine the extent of the inappropriate use of funds.

               Upon reviewing the documentation and corresponding with the grantee, the grantee agreed to and did
               reimburse $1,006.91 to NSF for award funds inappropriately used to purchase alcohol and for
               unexpended balances on pre-paid dining debit cards issued to conference participants. In addition,
               OIG requested that the.grantee continue to educate its research administrators on the proper
               expenditure and oversight of federal award funds.

     11        Accordingly, no further action is warranted and this matter is closed,




          li
           !
               , Redacted

I
NSF OIG Fonn 2 (1 1/02)
